No. 19-893

In the *uprente Court of Me liniteb 6tate5
SHIMON WARONKER, PETITIONER
V.

HEMPSTEAD UNION FREE SCHOOL DISTRICT, ET AL.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Second Circuit
BRIEF FOR THE RESPONDENTS
IN OPPOSITION

As required by Supreme Court Rule 33.1(h), I certify that the Brief for the
Respondents in Oppositioncontains 6,878 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 15, 2020.

Austin Reis Graff
Counsel for Respondents

